No.
IN THE SUPREME COURT OF THE UNITED STATES
In Re:
WILLIAM FEEHAN,
Petitioner,
v.
WISCONSIN ELECTIONS COMMISSION, COMMISSIONER ANN S. JACOBS,
MARC L. THOMSEN, COMMISSIONER MARGE BOSTELMAN, JULIE M.
GLANCEY, COMMISSIONER DEAN KNUDSON, ROBERT F. SPINDELL, JR.
and GOVERNOR TONY EVERS,
Respondents.
CERTIFICATE OF COMPLIANCE
The attached Writ of Certiorari complies with the type-volume limitation. As
required by Supreme Court Rule 33.1(h), I certify that the document contains 8286
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
Respectfully submitted,
/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
Attorney for Plaintiff/Petitioners
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
Date: December 24, 2020

1

